OA Read file
Report file
OIG/ File code: A-13-03-23088




        Congressional Response
               Report

          THE SOCIAL SECURITY ADMINISTRATION’S
           GOVERNMENT TRAVEL CARD PROGRAM

                                A-13-03-23088




                                August 2003
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                            SOCIAL SECURITY
                                                                       Inspector General

                                    August 15, 2003



The Honorable E. Clay Shaw, Jr.
Chairman, Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Shaw:

In response to a congressional inquiry from the Subcommittee on Social Security, we
determined whether the Social Security Administration (SSA) was aware a former
employee had received a Government Travel Card (GTC). In addition, we gathered and
summarized information regarding SSA’s management controls and contractor and
employee cardholder responsibilities regarding the issuance, use, and termination of the
GTC.

In November 2001, we issued a report discussing the Agency’s GTC program. Our
report, The Social Security Administration’s Smart Pay Program (A-13-02-22059),
provides information about instances of employees who have been investigated and
disciplined for misusing their GTC. A copy of this report is attached (see Appendix A).

RESULTS

In April 2003, we were advised that a former SSA employee received a GTC
erroneously. We notified SSA of this situation. SSA staff was not aware the former
employee was issued the charge card. However, SSA staff stated GTCs are
sometimes issued erroneously to former employees. SSA staff stated the Agency is
working to correct this problem.

If the former employee had used the erroneously issued travel card, the employee
would be liable for the charges. Cardholders are liable for all charges they have
incurred. SSA assumes no liability for individually billed travel card accounts. To
minimize fraud, waste, and abuse in the GTC program, each party must meet its
responsibilities for proper issuance, use, and termination of the GTC.
Page 2 – The Honorable E. Clay Shaw Jr.

SSA has various management controls intended to prevent waste, fraud, and
mismanagement within its GTC program. Further, Citibank and employee cardholders
have specific responsibilities related to the issuance, use, and termination of the GTC.

In Fiscal Year 2002, there were approximately $26.5 million in GTC charges. As we
reported in November 2001, SSA’s travel card program has had a low incidence of
misuse. We reported the travel card charges do not result in a debt to the Government.
We will continue to monitor incidences of potential misuse. However, we did not assess
SSA, Citibank, or the employee cardholders’ compliance with these controls.

SSA Management Controls

Office of Management and Budget guidance1 requires that agencies take systematic
and proactive measures to develop and implement appropriate cost-effective
management controls. Management controls (internal controls) are policies and
procedures used to reasonably ensure programs achieve their intended results and
resources are protected from waste, fraud, and mismanagement. SSA’s policies and
procedures regarding its GTC program are intended to prevent waste, fraud, and
mismanagement.

The Agency has several policies in place to decrease the risk of potential GTC misuse
and monitor charge card account activity. For example, there are maximum dollar
amounts that can be charged to the GTC and limitations on the amounts withdrawn
using the automated teller machine (ATM).2 SSA also uses merchant blocking for
certain types of purchases.3

Moreover, SSA program coordinators monitor charge card account activity. When
program coordinators identify unauthorized use of the ATM or charge card and/or
Citibank reports delinquencies or misuse, program coordinators provide this information
to SSA officials for further action.

SSA monitors employees’ GTC payments to Citibank. When an employee's travel card
account is 60 days in arrears, SSA informs the cardholder by telephone or electronic
mail to pay the delinquent account. For accounts 90 days in arrears, the program
coordinator notifies the employee and the employee’s manager that the account has
been suspended and must be paid to prevent cancellation and possible disciplinary
action. If the account reaches 120 days overdue, the program coordinator sends written
notification that the account has been canceled. Additionally, a copy of the
“delinquency letter” is sent to management for further action and placed in the
employee’s personnel file. Further, SSA can initiate employee salary offset to collect
the delinquent debts.

1
  Circular A-123, Management Accountability and Control, Section II. Establishing Management Controls.
2
  Charge Account Limit is $10,000. ATM limits of $400/day, $600/week, and $1,300/billing cycle.
3
  Allowable purchases are air/rail transportation, lodging, meals, and parking. Retail purchases are limited
to $100.
Page 3 – The Honorable E. Clay Shaw Jr.




SSA’s travel card program coordinator may suspend an account under his/her purview
depending on the individual situation. The coordinator must document the reason for
the suspension. SSA may temporarily deactivate the Citibank VISA because of
changes in an employee's position and/or travel requirement. The Agency will notify the
employee at least 72 hours before it deactivates or cancels the travel card.
When an employee leaves the Agency, the travel authorizing official notifies the
employee during the exit conference that his/her GTC will be canceled. After this
meeting, the travel authorizing official must notify the appropriate Agency GTC program
coordinator. In turn, the program coordinator, through direct access to Citibank’s
systems cancels the employee’s GTC within a pay period of the date of separation.

Citibank Responsibilities

Citibank establishes a separate account in each GTC holder’s name. Each month, the
cardholder receives an account statement directly from Citibank if a balance is due or
charges have occurred. Under its contract with the General Services Administration,
Citibank may not

   •   conduct initial credit checks on employees designated to receive a travel card;
   •   release credit information to anyone other than the employing agency officials or
       the individual cardholder, unless the card is canceled because of delinquency on
       the cardholder’s part and SSA and Citibank have exhausted every effort to attain
       payment;
   •   include commercial advertisements or other forms of solicitation with monthly
       billing statements;
   •   issue or cancel employee cards without the concurrence of authorized employing
       agency officials;
   •   sell or otherwise provide employee names or addresses to other commercial
       interests; and
   •   hold employees or their agencies liable for any charges made with lost or stolen
       cards provided the employee notifies Citibank promptly upon discovering that
       his/her card has been stolen or lost.

Citibank may suspend or cancel a Federal employee’s GTC if it is used for unauthorized
purchases; is used for unauthorized ATM withdrawals; and/or has not been paid timely.

An account is considered delinquent if Citibank has not received payment for the
undisputed amount 45 days from the closing date of the statement in which the charge
appears. If Citibank does not receive payment 55 days from the closing date of the
GTC statement, it will notify SSA and the cardholder the suspension process will be
initiated. If Citibank has not received payment for the undisputed principal amount 61
calendar days from the closing date, the account will be suspended. If Citibank does
not receive payment of the undisputed amount within 120 days, Citibank may cancel the
Page 4 – The Honorable E. Clay Shaw Jr.

credit card. Citibank may reinstate canceled accounts upon payment of the undisputed
principal amount and late fee.

Cardholder Responsibilities

SSA employees who travel, with limited exceptions, must obtain and use the Citibank
VISA for official Government travel expenses and authorized ATM withdrawals. These
individuals are expected to be familiar with Federal regulations and SSA policies and
procedures pertaining to travel.4 SSA assumes no liability for individually billed travel
card accounts or late fees that Citibank may charge. Individuals are liable for
undisputed amounts appearing on account statements issued from Citibank.

Each month the cardholder has an outstanding balance; the cardholder receives a
statement directly from Citibank and is expected to pay the balance within 25 days from
the date of the statement. Cardholders are liable for all charges they have incurred
regardless of whether they exceed the amount they are entitled for reimbursement. If
there is a problem with the account statement, it’s the cardholder’s responsibility to
notify Citibank in writing or by telephone within 60 days of the statement’s billing date.
Cardholders must contact Citibank if their GTC is lost or stolen or if the card was used
without the employee's authorization. Cardholders are not liable for fraudulent charges
if the card is lost or stolen and Citibank is promptly notified.

If you have any questions regarding this matter, please call me or have your staff
contact H. Douglas Cunningham, Executive Assistant, at (202) 358-6319.

                                                    Sincerely,




                                                    James G. Huse, Jr.




4
  Federal travel regulations, 41 CFR § 301-1.1 et seq.; Joint Federal Travel Regulations, Volume 1,
http://www.dtic.mil/perdiem/; Foreign Affairs Manual, Volume 6, Chapter 100,
http://foia.state.gov/FAMDIR/fam/fam.asp.
                                     Appendices
Appendix A – The Social Security Administration’s Smart Pay Program
               (A-13-02-22059)

Appendix B – Background

Appendix C – Scope and Methodology
                                                                     Appendix A
The Social Security Administration’s Smart Pay Program
(A-13-02-22059), issued November 6, 2001

To view the appendices for this report, please visit our web site at www.ssa.gov/oig/ or
click on the following link http://www.ssa.gov/oig/ADOBEPDF/A-13-02-22059.pdf. If you
do not have access to the Internet, you may request a copy of the report by contacting
the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
                           SOCIAL SECURITY
                            Office of the Inspector General


                                 November 6, 2001

The Honorable Charles E. Grassley
Ranking Minority Member
Committee on Finance
United States Senate
Washington, D.C. 20510

Dear Senator Grassley:

Thank you for your September 24, 2001 inquiry concerning the Social Security
Administration's (SSA) SmartPay program. We share your concerns that the
Government may be paying for Federal employees’ personal purchases made through
the unauthorized use of Government charge cards.

In responding to your questions, we relied on information from a prior audit,
investigations of employees who committed unauthorized use of Government charge
cards, and information we obtained from SSA representatives responsible for
monitoring SSA’s SmartPay program. The enclosed report contains information related
to

   ♦ instances of employees who have been investigated and disciplined for misusing
     the charge cards;

   ♦ details of audits and investigations my Office has conducted regarding the use of
     the charge cards;

   ♦ details of any planned or ongoing Office of the Inspector General audits and
     investigations of charge card misuse; and

   ♦ recommendations to correct any program weaknesses.

We appreciate your interest in SSA’s SmartPay program. We will continue to keep you
apprised of SSA’s and our efforts to ensure instances of charge card misuse are
minimized.




          SOCIAL SECURITY ADMINISTRATION          BALTIMORE MD 21235-0001
Page 2 - The Honorable Charles E. Grassley

If you have any questions concerning this matter, please call me or have your staff
contact Richard A. Rohde, Special Agent-in-Charge for External Affairs, at
410-966-1722.

                                               Sincerely,


                                               /s/

                                               James G. Huse, Jr.
                                               Inspector General of Social Security

Enclosure
 CONGRESSIONAL RESPONSE
        REPORT

The Social Security Administration’s
        SmartPay Program
             A-13-02-22059




           NOVEMBER 2001
                                                                       Background
In 1998, the General Services Administration (GSA) awarded five contracts that provide
Federal agencies a new way to pay for commercial goods and services as well as travel
and fleet-related expenses. The GSA SmartPay program is intended to allow Federal
employees to do their jobs more efficiently. The GSA SmartPay contracts are effective
from November 30, 1998 through November 29, 2003, with five 1-year options to renew.
Awards were made to five service providers: Citibank VISA, Bank One, Mellon Bank,
Bank of America, and U.S. Bank. The Social Security Administration (SSA) has elected
to use Citibank VISA as its vendor for the SmartPay program. The SmartPay program
is administered in two categories: travel and Government purchases.

Travel Card Program

Under the Travel Card Program, Federal employees who travel are issued travel charge
cards to use for official travel, as required under the Federal Travel Regulation.1 The
contractual relationship is between the employee and Citibank. SSA reimburses the
employee for travel expenses, and it is the employee’s responsibility to pay Citibank. In
Fiscal Year (FY) 2000, there were about 29,300 cardholders with total charges of
$25,003,959. In FY 2001 there were approximately 28,700 cardholders with total
charges of $36,929,554.

SSA provides training for new employees on the appropriate use of the travel card.
Also, SSA has several controls to monitor the program’s effectiveness and to identify
potential misuse of the travel card. For example, SSA has established with Citibank a
$10,000 charge limit and a $1,300 limit on automated teller machine (ATM) withdraws.
SSA also uses merchant blocking, which permits only certain types of purchases, such
as air/rail transportation, lodging, meals, and parking. Also, Citibank suspends cards of
individuals who have not paid for charges after 66 days, cancels cards that are
120 days past due, and cancels cards that have unauthorized use.

SSA also monitors the employee’s payments to Citibank. When an employee’s travel
card account becomes delinquent,2 SSA sends notification to the cardholder to pay the
delinquent account. In addition, the appropriate Deputy Commissioner and the travel
authorizing official are informed of the delinquency. The delinquency letter is placed in
the employee’s personnel file for 1 year. According to SSA, these letters have been
effective in getting employees to repay their delinquent accounts.




1
    41 CFR part 301-51, et al.
2
    An account is considered delinquent when it is not paid within 60 days.


SSA’s SmartPay Program (A-13-02-22059)                                                      1
Purchase Card Program

Under the Government Purchases Program, some employees have acquisition authority
to make small purchases for SSA. The contractual relationship is between SSA and
Citibank. In FY 2000, there were about 3,700 cardholders with total actual payment
purchases of $50,008,521, and, in FY 2001, there were approximately
3,800 cardholders with total purchases of $50,765,086.

SSA provides training for new cardholders and approving officials. SSA is providing
refresher training for current cardholders that must be completed by
November 30, 2001. SSA has controls to monitor the program’s effectiveness and to
identify potential misuse of Government purchase cards. Some of these improvements
were the result of an audit report we issued in June 2000. For example, SSA requires
the approving official to monitor purchase card activity by reviewing each cardholder’s
monthly activity statement and to question purchases that appear inappropriate. Other
controls include limiting purchases to $2,5003 per transaction per day, monthly
exception routines to identify split orders to stay within the $2,500, merchant blocking,
and word searches for certain descriptions of purchases that appear inappropriate.
Finally, SSA’s Office of Acquisition and Grants performs periodic internal quality reviews
to assess compliance with procedures.




3
    According to SSA, there are about 100 cardholders with purchase authority over $2,500.


SSA’s SmartPay Program (A-13-02-22059)                                                       2
                                                  Results of Review
On September 24, 2001, Senator Charles E. Grassley, Ranking Minority Member,
Senate Finance Committee, sent a letter to the Inspector General of SSA requesting
that the Office of the Inspector General (OIG) communicate its evaluative experience
with the SmartPay program at SSA. Senator Grassley made this request in light of
recent reports that the Government is paying for Federal employees’ personal
purchases made through the unauthorized use of Government charge cards.
Senator Grassley specifically requested information in the following areas.

1. Any information regarding instances of employees who have been
   investigated and disciplined for misusing their government
   purchase and travel cards. Please include a full description of
   each instance of misuse/abuse and the resulting disciplinary
   action.
According to SSA, there were 112 instances of Government charge card misuse in FYs
2000 and 2001. The disciplinary action ranged from a reprimand to the employee’s
termination. Appendix A contains a full description of each case.

   Purchase Card          Travel Card Misuse            Disciplinary Action
      Misuse
                                                  ¾ Removal
        2 cases                                   ¾ 30 day suspension
                                                  Reprimand to termination of
                               110 cases          employee

2. Details of audits and investigations you have conducted regarding
   the use of SmartPay accounts, along with copies of any reports
   you have written as a result of such activities.
In June 2000, we issued an audit report, Review of the Social Security Administration’s
Internal Controls over International Merchant Purchase Authorization Card Payments
(A-13-97-91018). In this audit, we identified the following internal control weaknesses in
the Government purchase card process:

      ¾   incidences in which required purchase logs were not always maintained;
      ¾   purchase documentation was insufficient;
      ¾   management approval missing;
      ¾   separation of duties not enforced;
      ¾   unauthorized individuals given purchase card access;
      ¾   split purchases made;


SSA’s SmartPay Program (A-13-02-22059)                                                   3
      ¾ purchase descriptions inaccurate; and
      ¾ budget approval not obtained.

We believe these internal control weaknesses increase the potential for fraud, waste
and abuse in connection with Government charge card purchases as well as hindering
SSA’s ability to detect such actions. To strengthen Government charge card purchase
internal controls, we made 10 recommendations to SSA. SSA generally agreed with
our recommendations. Appendix B contains a copy of the audit report.

Our Office of Investigations investigated four cases of Government charge card misuse
in FYs 2000 and 2001. The disciplinary action ranged from a 7-day suspension to
incarceration. Appendix C contains a full description of each investigation.

   Purchase Card          Travel Card Misuse           Disciplinary Action
      Misuse
                                                  ¾ 30 day suspension;
                                                  ¾ 6 days’ incarceration;
                                                    probation and restitution of
       2 cases                                      $8,096
                                                  ¾ 7 day suspension;
                                2 cases             employee resignation

3. Details of audits and investigations you plan to conduct regarding
   the use of SmartPay accounts.

We will continue to track SSA’s progress in implementing our prior recommendations to
improve the controls over Government purchases. We have no planned audits of SSA’s
travel card program because of the low incidence of misuse (55 cases/year for
approximately 29,000 cardholders). In addition, individual cardholders are obligated to
pay Citibank for travel card expenses and are therefore not a debt to the Government.

We have one open investigation; however, the results are not available. We will
continue to monitor the SmartPay program by quickly responding to all allegations of
fraud and misuse.

4. Any recommendations you have for correcting program
   weaknesses.
We have no new recommendations at this time for correcting program weaknesses.




SSA’s SmartPay Program (A-13-02-22059)                                                  4
                                                           Conclusion
The SmartPay program is intended to allow Federal employees to do their job more
efficiently. However, there are risks associated with the use of Government charge
cards. Our prior audit of SSA’s Government purchase card program has shown there
are internal control weaknesses that increase the potential for fraud, waste, and abuse.
We are encouraged that SSA generally agreed with our findings and recommendations.
SSA’s corrective actions, if properly implemented, should significantly improve SSA’s
internal controls over the use of Government purchase cards. SSA’s travel card
program has a low incidence of misuse, and travel card charges do not result in a debt
to the Government. Although we have no planned audits of SSA’s travel card program,
we will continue to monitor incidences of potential misuse.




SSA’s SmartPay Program (A-13-02-22059)                                                 5
                                                                              Appendix B
Background
Under the Government Travel Card (GTC) program, as required by Federal travel
regulations,1 Federal employees are issued charge cards for official travel. As of May
2003, Citibank was the GTC contractor2. The GTC is accepted in more than 14 million
establishments worldwide, providing convenience to Government travelers.

Under the GTC program, Social Security Administration employees must use the
charge cards when travel is appropriately authorized. Government employees use the
cards to pay for major expenses3 connected with official travel. Employees may also
use the GTC to make cash withdrawals from automated teller machines or obtain a
cash advance from a banking facility for other travel expenses.4 Although the Social
Security Administration reimburses its employees for expenses incurred when traveling
for official business, it is the employees’ responsibility to pay Citibank.

In Fiscal Year (FY) 2000, there were approximately 29,300 cardholders under the GTC
program with total charges of about $30.2 million.5 In FY 2001, there were
approximately 28,700 cardholders with total charges of $36.9 million. In FY 2002, there
were approximately 29,700 cardholders with total charges of $26.5 million (see Chart 1
below).




1
  41 CFR § 301-1.1 et seq.
2
  General Services Administration’s Contract Number GS-23F-98006, effective November 30, 1998. The
contract is for 5 years with five additional 1-year options.
3
  Major expenses include transportation tickets, lodging, and car rentals.
4
  Other travel expenses may include tips, taxi, laundry, dry-cleaning, and parking.
5
  Total charges include individual card charges and automated teller machine withdrawals and fees.
These charges do not include centrally billed account charges.
Chart 1: FY 2000 – 2002 Government Travel Cardholders and Charges

            Travel Cardholders and Charges

                                $36.9
   29.3 $30.2          28.7                  29.7
                                                    $26.5   Cardholders
                                                            in Thousands
                                                            Charges in
                                                            Millions



   2000                  2001                 2002

Source: SSA’s Office of Financial Policy and Operations
                                                                                 Appendix C
Scope and Methodology
We obtained and reviewed Federal regulations, SSA’s policies,1 Memorandums of
Understanding,2 and GTC cardholder agreements related to the GTC program. We
reviewed these documents to identify SSA management controls as well as Citibank
and employee cardholder responsibilities related to the GTC program. Additionally, we
interviewed SSA staff responsible for administering the GTC program. However, we did
not determine whether SSA complied with its management controls or Citibank and
employee cardholders complied with their responsibilities.

The entity reviewed was the Office of Financial Policy and Operations within the Office
of Finance, Assessment and Management. We performed our audit in May 2003 in
Baltimore, Maryland. We performed our work in accordance with the President’s
Council on Integrity and Efficiency Quality Standards for Inspections.




1
  SSA’s Administrative Instructions Manual System and Federal travel regulations – 41 CFR § 301-1.1 et
seq.
2
  Memorandum of Understanding between the American Federation of Government Employees/National
Treasury Employees Union Chapter 224 and SSA.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                              Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                  Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                            Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
